HHS/OIG, Audit -"Review of Massachusetts Medicaid Payments For Outpatient Non-Physician Services Rendered From October 1, 1999 Through March 31, 2001 During An Inpatient Stay,"(A-01-02-00012)
Department
of Health and Human Services
"Review of Massachusetts Medicaid Payments For Outpatient Non-Physician Services Rendered From October 1, 1999 Through
March 31, 2001 During An Inpatient Stay," (A-01-02-00012)
February 4, 2003
Complete
Text of Report is available in PDF format (313 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
According to the Massachusetts State Plan, hospitals should not be reimbursed for outpatient services rendered during
an inpatient stay.  To perform our review, we independently generated a computer match of outpatient non-physician
services rendered during an inpatient stay with claim paid dates from October 1, 1999 through March 31, 2001.  Based
on the results of this computer match, we reviewed a random sample of 100 and found that only 2 of the 100 services were
duplicated.  Accordingly, we concluded that the risk is low that DMA made duplicate payments for outpatient services
rendered during an inpatient stay.